HHS/OIG, Audit - "Review of Pension Costs Claimed for Medicare
Reimbursement by Empire Blue Cross Blue Shield for Fiscal Years 1999 Through
2006," (A-07-07-00254)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed
for Medicare Reimbursement by Empire Blue Cross Blue Shield for Fiscal Years
1999 Through 2006," (A-07-07-00254)
April 15, 2008
Complete Text of Report is available in PDF format (521 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Empire Blue Cross Blue Shield (Empire), a CMS contractor, correctly calculated and claimed zero pension costs
for Medicare reimbursement for fiscal years (FY) 1999 through 2004; however, it
claimed $794,333 of unallowable Medicare pension costs for FYs 2005 and
2006.  This error occurred primarily as a result of the increase in the Medicare
segment actuarial value of assets.  This increase caused the assignable
pension costs to be zero for both FYs.  As a result, Empire claimed $794,333 of
unallowable pension costs for Medicare reimbursement for FYs 2005 and 2006.
We recommended that Empire revise its Final Administrative
Cost Proposals for FYs 2005 and 2006 or otherwise credit CMS to reduce its
claimed pension costs by $794,333.
Empires Medicare contract was transferred to
National Government Systems (NGS) effective January 1, 2007.  NGS concurred
with the finding and recommendation and stated that it would effectuate payment
at the time of a settlement with CMS.